<html>
<title> - 10 YEARS OF GPRA--RESULTS, DEMONSTRATED</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





                10 YEARS OF GPRA--RESULTS, DEMONSTRATED

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY
                        AND FINANCIAL MANAGEMENT

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 31, 2004

                               __________

                           Serial No. 108-175

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-196                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
                   David Marin, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

     Subcommittee on Government Efficiency and Financial Management

              TODD RUSSELL PLATTS, Pennsylvania, Chairman
MARSHA BLACKBURN, Tennessee          EDOLPHUS TOWNS, New York
STEVEN C. LaTOURETTE, Ohio           PAUL E. KANJORSKI, Pennsylvania
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
KATHERINE HARRIS, Florida

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     Mike Hettinger, Staff Director
                 Larry Brady, Professional Staff Member
                          Sara D'Orsie, Clerk
            Adam Bordes, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 31, 2004...................................     1
Statement of:
    Breul, Jonathan D., senior fellow, IBM Center for the 
      Business of Government.....................................    33
    Dalton, Patricia, Director, Strategic Issues, General 
      Accounting Office..........................................     8
    DeMaio, Carl, president and founder, the Performance 
      Institute..................................................    43
    Keevey, Richard F., director, Performance Consortium, 
      National Academy of Public Administration..................    52
    McGinnis, Patricia, president and CEO, the Council for 
      Excellence in Government...................................    64
    Mercer, John, GPRA & Performance Management Services.........    72
    Metzger, Carl J., director, Government Results Center........    91
Letters, statements, etc., submitted for the record by:
    Breul, Jonathan D., senior fellow, IBM Center for the 
      Business of Government, prepared statement of..............    36
    Dalton, Patricia, Director, Strategic Issues, General 
      Accounting Office, prepared statement of...................    12
    DeMaio, Carl, president and founder, the Performance 
      Institute, prepared statement of...........................    47
    Keevey, Richard F., director, Performance Consortium, 
      National Academy of Public Administration, prepared 
      statement of...............................................    54
    McGinnis, Patricia, president and CEO, the Council for 
      Excellence in Government, prepared statement of............    66
    Mercer, John, GPRA & Performance Management Services, 
      prepared statement of......................................    75
    Metzger, Carl J., director, Government Results Center, 
      prepared statement of......................................    95
    Platts, Hon. Todd Russell, a Representative in Congress from 
      the State of Pennsylvania, prepared statement of...........     3
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................     5

 
                10 YEARS OF GPRA--RESULTS, DEMONSTRATED

                              ----------                              


                       WEDNESDAY, MARCH 31, 2004

                  House of Representatives,
Subcommittee on Government Efficiency and Financial 
                                        Management,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2247, Rayburn House Office Building, Hon. Todd Russell 
Platts (chairman of the subcommittee) presiding.
    Present: Representatives Platts, Towns, and Maloney.
    Staff present: Mike Hettinger, staff director; Dan Daly, 
counsel; Larry Brady and Tabetha Mueller, professional staff 
members; Amy Laudeman, legislative assistant; Sarah D'Orsie, 
clerk; Adam Bordes, minority professional staff member; and 
Jean Gosa, minority assistant clerk.
    Mr. Platts. A quorum being present, this hearing of the 
Subcommittee on Government Efficiency and Financial Management 
will come to order.
    I have a brief opening statement and ask, without 
objection, that my full statement be submitted for the record.
    I was pleased to be part of the request for the General 
Accounting Office to examine the effects that the Government 
Performance and Results Act has had on the Federal Government. 
I certainly commend GAO for its work, and I feel it is very 
important for us in Congress to go back and analyze how the 
laws that are passed are implemented. We need to make sure that 
GPRA is having a positive impact on agency management.
    The findings of the report were encouraging. GAO found that 
GPRA has improved the focus of the Federal Government. The 
report also identifies some important challenges, and we look 
forward to discussing these areas here today.
    Many of the successes we have seen under the President's 
management agenda, including the evolution of the Program 
Assessment Rating Tool, could not have happened without the 
foundation established by GPRA. It is important for Congress to 
pay close attention to management reforms. These efforts are 
not the most exciting issues, but there are few matters more 
important for us to focus on than ensuring that the Federal 
Government is well run and results oriented.
    Today, we are delighted to have a great panel of witnesses 
before the subcommittee. We have the author of the report, Pat 
Dalton, Director of Strategic Issues at the General Accounting 
Office. Again, I thank you and your staff for a tremendous 
effort in compiling all the information and making a great 
assessment for us to build on as we go forward.
    Ms. Dalton. Thank you, Mr. Chairman.
    Mr. Platts. We also have a panel of experts who have spent 
a good deal of time looking at these issues from the private 
sector, including Jonathan Breul from the IBM Center for the 
Business of Government. We appreciate having you back before 
the subcommittee again, Jonathan.
    Carl DeMaio is president and founder of the Performance 
Institute.
    Richard Keevey is director of Performance Consortium, at 
the National Academy of Public Administration. As a holder of a 
degree in public administration, I appreciate Mr. Keevey's 
work.
    Patricia McGinnis is president and CEO of the Council for 
Excellence in Government.
    John Mercer is widely known as the father of GPRA. We 
appreciate your participation today.
    Last but not least, Carl Metzger, director of the 
Government Results Center.
    As a committee, we thank each of you for being with us.
    I yield to the ranking member, Mr. Towns from New York, for 
the purpose of an opening statement.
    [The prepared statement of Hon. Todd Russell Platts 
follows:]

[GRAPHIC] [TIFF OMITTED] T5196.001

    Mr. Towns. Thank you, Mr. Chairman, for holding this 
hearing as we continue to evaluate the progress being made in 
the Government Performance and Results Act.
    Today's hearing focuses on GAO's recent report evaluating 
the impact of GPRA among the agency community and its progress 
toward making our government a more results-oriented 
institution. As this subcommittee knows, initiatives like these 
have been attempted for over 5 decades through both legislative 
mandates and administration of both political parties, but have 
often resulted in only limited progress. While I support our 
efforts to bring about greater efficiency and accountability in 
the programs and services that our Nation depends on, it 
appears that the intent of the GPRA has only been partially 
fulfilled.
    There seems to be a divide among the number of agencies 
that are committed to utilizing the performance information 
provided through GPRA and those that choose to only comply with 
its reporting requirements. Perhaps this is due to a lack of 
agency leadership and commitment to the requirements under the 
statute, or an inadequate level of training and guidance from 
OMB for agency managers to understand the information obtained 
through the process.
    Let me also add that agency management often struggles in 
establishing appropriate outcome-oriented goals for the program 
and linking such measures to long-term strategic objectives for 
both individual program and agency mission.
    Last, agencies are now facing new challenges for 
implementing performance and budget-based measurements through 
program assessment rating tools as part of the President's 
Management Agenda Budget and Performance Integration 
Initiative. With this, I am concerned that agencies are now 
being required to comply with two separate reporting 
requirements, while not yet realizing or understanding the 
benefits of GPRA.
    If GPRA is to substantiate the intended benefits that were 
envisioned when it was enacted 10 years ago, OMB must recommit 
itself to the cause through increased guidance and 
communication with the agency community on establishing 
appropriate measurements and implementation strategies for all 
programs. Moreover, the utilization of a governmentwide 
performance plan for an integrated approach to cross-cutting 
agency issues must be completed.
    I look forward to the hearing today and look forward to 
hearing from the witnesses. On that note, I yield back.
    [The prepared statement of Hon. Edolphus Towns follows:]

    [GRAPHIC] [TIFF OMITTED] T5196.002
    
    [GRAPHIC] [TIFF OMITTED] T5196.003
    
    [GRAPHIC] [TIFF OMITTED] T5196.004
    
    Mr. Platts. Thank you, Mr. Towns.
    Now I ask for all of our witnesses to be sworn in.
    [Witnesses sworn.]
    Mr. Platts. The clerk will note that all witnesses affirm 
the oath.
    Again, the subcommittee appreciates your presence here 
today, and your substantive written testimonies that you 
provided to us ahead of time. We would ask if you could stay as 
close as possible to the initial 5 minutes for opening 
statements. Because we have a large panel, we will try to stay 
close to the 5 minutes, and then we will have questions.
    Ms. Dalton, we will begin with you.

   STATEMENT OF PATRICIA DALTON, DIRECTOR, STRATEGIC ISSUES, 
                   GENERAL ACCOUNTING OFFICE

    Ms. Dalton. Thank you, Mr. Chairman. It is a pleasure to be 
here today to talk about the Government Performance and Results 
Act.
    Prior to enactment of GPRA, our work at GAO on performance 
measurement showed that Federal agencies generally lacked the 
infrastructure needed to manage and report on results in a way 
that was transparent to the Congress and to the American 
people. Today, based on a decade of work in this area, we can 
safely say we have seen a transformation in the capacity of the 
Federal Government to manage for results.
    This capacity includes an infrastructure of outcome-
oriented strategic plans, performance measures and 
accountability reporting that have significantly improved over 
time and provide a solid foundation for improving the 
performance of Federal programs. However, there are a number of 
challenges that remain.
    Our recent report for this subcommittee and others provides 
a comprehensive assessment of GPRA at its 10-year anniversary. 
Our report is based on a large body of work, including three 
governmentwide surveys over the past 10 years of Federal 
managers and seven focus groups with managers of 23 out of the 
24 CFO act agencies. My statement today will briefly summarize 
our findings on the effectiveness of GPRA, the challenges 
facing agencies and, finally, how the Federal Government can 
continue to shift toward a more results oriented focus. Ten 
years after enactment, GPRA requirements have laid a solid 
foundation of results-oriented agency planning measurement and 
reporting.
    First of all, the strategic framework that GPRA established 
has been very important. GPRA addressed agency shortcomings by 
creating a comprehensive and consistent statutory foundation of 
required agency-wide strategic plans, annual performance plans 
and annual performance reports. It provided consistency as 
opposed to, in the past, the ``flavor of the month'' where we 
had, MBOs, ZZB, and other management initiatives.
    Cultural changes also have occurred. Performance planning 
and measurement have slowly, yet increasingly, become a part of 
agency cultures. A new vocabulary is being used, new approaches 
are being taken to problem solving, decisions are discussed in 
terms of results and performance, not just activities and 
processes. Rethinking of agency missions has also occurred.
    A performance management infrastructure has been 
established. Federal managers reported having significantly 
more of the types of performance measures called for by GPRA, 
particularly outcome-oriented performance measures. The chart 
to my right illustrates what we have seen in the three surveys 
from 1997, 2000 and 2003, and it is consistently trending 
upwards in terms of the types of measures being reported--
especially of all types in the outcomes.
    At the same time, we are also observing a significant 
decline in the percentage of Federal managers who found factors 
hindering measuring performance or using performance 
information.
    The foundation of results-oriented planning and reporting 
that has been established through GPRA is reflected in the 
quality of the plans and reports of the six Federal agencies we 
reviewed as part of our work. We found significant improvement 
in strategic plans, annual performance plans and annual 
performance and accountability reports of Education, Energy, 
HUD, Transportation, SBA and SSA compared to our reviews of 
their earlier plans and reports. However, there is still 
further room for improvement, particularly in addressing cross-
cutting issues, using program evaluations, discussing and 
improving data credibility, and linking cost to performance.
    The final area that we find a significant positive effect 
in is in the transparency of government. It has increased under 
GPRA. Prior to GPRA, few agencies reported their performance 
information externally; now it is reported on a regular basis. 
OMB is a key consumer of performance information, most recently 
through the PART assessment. Our survey data suggested that 
more Federal managers, especially at the SES level, believed 
that OMB was paying attention to their efforts under GPRA, and 
they found that OMB was not micromanaging this process, which 
gives them more ownership of the process.
    GPRA also improves the transparency of government results 
to the American public with more information and new types of 
information being available.
    Now, as I said, there are challenges and there are 
significant ones that continue to remain: first of all, top 
leadership commitment.
    While one might expect an increase in agency leadership 
commitment since GPRA was enacted, our governmentwide surveys 
of Federal managers have not shown significant increases, 
although I would note there is a significant difference in the 
perceptions between the SES and non-SES managers. However, 
OMB's recently demonstrated leadership in its review of 
performance information from a budgetary perspective, using the 
PART tool, is a step in the right direction. Our interviews 
with senior political appointees of both the Clinton and the 
current Bush administrations also reflect a commitment to 
results-oriented management. This commitment clearly needs to 
be demonstrated at lower levels in the organization.
    A second challenge is in the use of performance information 
to manage. The benefit of collecting performance information is 
only fully realized when the information is actually used by 
managers to bring about desired results. Federal managers 
report mixed results in the use of information, and this is 
illustrated on the upper chart here, which compares the use of 
information on a number of dimensions over our three surveys. 
As you can see, it has pretty much stayed level.
    One point I would add, that is more on a positive note, 
when we asked managers whether or not they were considering 
strategic planning goals in their key management tasks, their 
responses were much more favorable. The ranges went up to from 
the high 60's to the high 70's percent, so there are some 
favorable signs.
    The human capital arena also presents some challenges. In 
our survey, Federal managers reported that they were being held 
accountable for program results, but did not feel they had the 
decisionmaking authority they needed to accomplish agency 
goals. Again, there was a distinctive difference in perceptions 
between the SES and the non-SES managers.
    We also noted that fewer than half the managers reported 
receiving relevant training, and this is important in that we 
found a correlation between having training and using 
performance information.
    Finally, in the human capital arena, managers also 
perceived a lack of positive recognition for helping their 
agencies achieve results.
    Performance measurement continues to be a challenge. There 
are challenges in setting outcome-oriented goals, measuring 
performance and collecting useful data. Outcome-oriented 
performance measures were especially difficult to establish for 
programs in which a line of effort was not easily quantifiable. 
Managers also identified difficulties in distinguishing between 
the results produced by the Federal program and results caused 
by external factors or non-Federal actors.
    A fifth challenge is in the cross-cutting area. Cross-
cutting issues continue to be a challenge in GPRA 
implementation. We found some improvement in addressing cross-
cutting efforts, but a great deal more is needed. OMB could use 
the provision of GPRA that calls for developing a 
governmentwide performance plan to better integrate expected 
agency level performance across agency lines. The current 
agency-by-agency focus of the budget does not provide the 
integrated perspective on government performance envisioned by 
GPRA.
    A strategic plan for the Federal Government would be an 
additional tool that would provide longer-range perspectives on 
integration and priorities.
    The final area that we identified as a challenge was 
Congress' use of information. Our focus group members believe 
that the reluctance of Congress to use performance information 
when making decisions, especially appropriation decisions, was 
a hindrance. However, we did find some indications of 
congressional use, but clearly more use of performance 
information could be made.
    While there is concern among the agencies regarding 
Congress' use of performance information, it is important to 
make sure this information is useful. In other words, the 
information presented amd its presentation must meet the needs 
of the users, not only the Congress, but also the agencies 
themselves as evidenced by this chart at my right.
    The challenges that we have identified are not new. Most 
have not changed significantly since we first reported on the 
governmentwide implementation of GPRA. However, we have 
frequently reported on approaches that agencies, Congress, and 
OMB could use to address these challenges. These approaches 
include strengthening the commitment of top leadership, taking 
a governmentwide approach to cross-cutting issues, improving to 
usefulness of performance information to managers, Congress and 
the public, and improving the quality of performance 
information.
    Collectively, these approaches form the agenda that the 
Federal agencies, OMB and the Congress will need to follow to 
bring about a more sustained, governmentwide focus on results.
    In our report, we made five recommendations to OMB to 
address many of these challenges. I am pleased to report that 
OMB has already started to take some steps to implement our 
recommendations. We also identified two matters for 
congressional consideration to improve governmentwide focus on 
results, first changing the cycle of the agency strategic plans 
and second, in addition to the governmentwide performance plan, 
requiring a governmentwide strategic plan I am pleased to note 
that you, Mr. Chairman, have introduced legislation on changing 
the timing of the agency strategic plans.
    Performance-based management as envisioned by GPRA requires 
transforming organizational cultures to improve decisionmaking, 
maximizing performance, and ensuring accountability. This 
transformation is not an easy one and requires investments of 
time and resources as well as sustained leadership, commitment 
and attention. We have come a long way in this transformation, 
but it is not yet complete.
    Mr. Chairman, this concludes my prepared statement. I am 
pleased to answer any questions.
    Mr. Platts. Thank you, Ms. Dalton. Thank you for a great 
job in putting together a good report. It will serve as a 
foundation as we look to strengthen GPRA.
    Ms. Dalton. Thank you, Mr. Chairman.
    [The prepared statement of Ms. Dalton follows:]

    [GRAPHIC] [TIFF OMITTED] T5196.005
    
    [GRAPHIC] [TIFF OMITTED] T5196.006
    
    [GRAPHIC] [TIFF OMITTED] T5196.007
    
    [GRAPHIC] [TIFF OMITTED] T5196.008
    
    [GRAPHIC] [TIFF OMITTED] T5196.009
    
    [GRAPHIC] [TIFF OMITTED] T5196.010
    
    [GRAPHIC] [TIFF OMITTED] T5196.011
    
    [GRAPHIC] [TIFF OMITTED] T5196.012
    
    [GRAPHIC] [TIFF OMITTED] T5196.013
    
    [GRAPHIC] [TIFF OMITTED] T5196.014
    
    [GRAPHIC] [TIFF OMITTED] T5196.015
    
    [GRAPHIC] [TIFF OMITTED] T5196.016
    
    [GRAPHIC] [TIFF OMITTED] T5196.017
    
    [GRAPHIC] [TIFF OMITTED] T5196.018
    
    [GRAPHIC] [TIFF OMITTED] T5196.019
    
    [GRAPHIC] [TIFF OMITTED] T5196.020
    
    [GRAPHIC] [TIFF OMITTED] T5196.021
    
    [GRAPHIC] [TIFF OMITTED] T5196.022
    
    [GRAPHIC] [TIFF OMITTED] T5196.023
    
    [GRAPHIC] [TIFF OMITTED] T5196.024
    
    [GRAPHIC] [TIFF OMITTED] T5196.025
    
    Mr. Platts. Mr. Breul.

 STATEMENT OF JONATHAN D. BREUL, SENIOR FELLOW, IBM CENTER FOR 
                   THE BUSINESS OF GOVERNMENT

    Mr. Breul. Thank you, Mr. Chairman.
    The key elements of the Government Performance and Results 
Act were actually first outlined in 1989 in the fiscal year 
1990 budget during the last year of the Reagan administration. 
In a chapter titled Government of the Future, the Office of 
Management and Budget described the need for strategic 
planning, monitoring of performance, an emphasis on results, 
and greater managerial flexibility and accountability.
    Today, the Federal Government is now in the 7th year of 
governmentwide implementation of the performance-based, 
results-oriented system of management envisioned by GPRA. 
Agencies have made very substantial progress, and efforts 
continue to significantly improve the use and value of 
performance information. To a surprising and welcome extent, an 
increasing number of departments and agency officials are 
embracing results-based government.
    The first issue you asked us to address is the effect of 
GPRA over the last 10 years. The first and perhaps principal 
effect of GPRA is that we now have a sensible, bipartisan 
statutory framework for results-based management. Ten years ago 
no laws existed that supported or required a comprehensive 
governmentwide approach to performance-based management.
    GPRA has also benefited from being part of a series of 
important statutory reforms under way, thanks to this 
committee, including, for example, the Chief Financial Officers 
Act and efforts by the Federal Accounting Standards Advisory 
Board to improve financial reporting. In addition, the 
bipartisan nature of the reform gave it added strength.
    GPRA was conceived by a Republican Senator, passed under a 
Democratic committee chair, and signed by a Democratic 
President. Recently, President Bush has made results a key 
element of his management agenda.
    Strategic planning is a second important effect of GPRA. At 
the beginning of the 1990's, only a very small handful of 
agencies did any strategic planning. Now, a decade later, 
strategic planning is commonplace. Not only is it now required 
at the department level, but in almost every bureau, agency and 
activity throughout the government.
    In the last 6 months, agencies completed a third round of 
those strategic plans. Compared to the first round in 1997, the 
plans have become slimmer, more attractive and much more 
readable. Importantly, over time, they have become much less a 
statement of vision and more of a 5 to 6-year operating plan.
    Performance measurement is the third important effect of 
GPRA. Ten years of experience with the act has greatly expanded 
the supply of results-oriented information. Agencies have 
improved the focus of their planning, they have strengthened 
the quality of their performance information, and now are 
producing useful baselines from which to assess future program 
performance.
    Under the Bush administration, interest in performance 
measurement has accelerated. Use of the performance information 
to influence resource allocation and program management 
decisions is expanding as the Program Assessment Rating Tool 
has been used to systematically evaluate programs.
    The second matter you asked us to address are challenges 
that agencies face. I would suggest that the first challenge is 
program evaluation. GPRA has prompted a revival of interest in 
program evaluation, in part because the statute for the first 
time defines program evaluation on a governmentwide basis and 
stipulates that it be addressed in an agency's strategic plans 
as well as annual reports. Unfortunately, however, despite the 
efforts to place a premium on evaluation, both the supply and 
demand for it remain weak.
    In the long run, sustaining a credible, performance-based 
focus in budgeting is going to require significant improvements 
in evaluation capacities and information across the Federal 
agencies, as well as in third parties that implement Federal 
programs. H.R. 3826 is a helpful step in this regard.
    The second challenge agencies face is identifying the full 
costs of their programs in the budget. In order to improve our 
understanding of the true cost of a program, budget accounts 
and activities should be charged consistently for the full 
annual cost of the resources used. Because of the requirements 
in law and other precedent, the existing budget reporting 
structure includes all budget costs, but does not always link 
those full costs to a program in one place.
    An example of this problem are employee costs such as those 
relating to retirement. Pensions for new employees and military 
employees were reformed in the mid-1980's, with employers 
paying their share of the accruing costs, yet costs for 
employees hired under the earlier Civil Service Retirement 
System have only partly been charged to programs. Similar 
anomalies exist with capital costs, support services and 
environmental costs.
    A third challenge agencies face is developing integrated 
reporting systems. At present, few agencies have automated 
systems that routinely link information on costs and goals for 
budget performance reporting. With the exception of the 
National Aeronautics and Space Administration and possibly the 
Department of Defense, there are no automated management 
systems to provide a systematic framework for tracking costs 
and goals from planning through enactment and on to execution.
    GPRA reporting is still often a paper-intensive exercise 
that focuses on statutory reporting to the Congress. Agencies 
prepare their budget requests using capabilities that are not 
linked to central automated systems. Many actually enter the 
data in Excel spreadsheets, and annual budget requests to the 
OMB and to the Budget Committees are, for the most part, 
paperwork products.
    Policy decisions, however, are made based on information, 
and increasingly the challenge is no longer a scarcity of 
information, but how to manage the flood of that information. 
The challenge of using this information is one of making that 
information routinely and systematically available to the 
decisionmakers, whether they be at the program level or here in 
Congress.
    The fourth challenge facing agencies is performance 
budgeting. Performance budgeting is the next logical step in 
the implementation of GPRA. This year, for the first time, many 
departments and nearly all major agencies developed a 
performance budget for OMB and sent a performance budget 
justification for fiscal year 2005 to their Appropriations 
Committees.
    Finally, you asked us to comment on how the government can 
continue to shift to a more results-oriented focus. The initial 
years of implementing GPRA were focused on developing a 
performance management framework accompanied by a growing 
interest in the use of performance information. However, as I 
suggested, systematic integration of performance into day-to-
day management and budget decisionmaking has not yet occurred.
    Ultimately, agencies must routinely link information on 
costs and goals. They need to involve program managers in 
directing the setting of costs and performance goals, and then 
they need to hold managers accountable for the results they 
produce for systems of information that are transparent to 
decisionmakers and the public.
    Together, GPRA and the CFO Act have made the foundation for 
performance budgeting by establishing the infrastructure in 
agencies to improve the supply of information on performance 
and costs. Sustained executive branch leadership and 
congressional oversight will be required to build on this 
foundation to make it useful and used.
    Thank you, Mr. Chairman.
    Mr. Platts. Thank you, Mr. Breul.
    [The prepared statement of Mr. Breul follows:]

    [GRAPHIC] [TIFF OMITTED] T5196.026
    
    [GRAPHIC] [TIFF OMITTED] T5196.027
    
    [GRAPHIC] [TIFF OMITTED] T5196.028
    
    [GRAPHIC] [TIFF OMITTED] T5196.029
    
    [GRAPHIC] [TIFF OMITTED] T5196.030
    
    [GRAPHIC] [TIFF OMITTED] T5196.031
    
    [GRAPHIC] [TIFF OMITTED] T5196.032
    
    Mr. Platts. Mr. DeMaio.

     STATEMENT OF CARL DeMAIO, PRESIDENT AND FOUNDER, THE 
                     PERFORMANCE INSTITUTE

    Mr. DeMaio. Thank you, Mr. Chairman. Thank you, Ranking 
Member Towns. I am Carl DeMaio from the Performance Institute.
    We are pleased to be here this afternoon to comment on how 
to evaluate the results of the Government Performance and 
Results Act. We have spent 5 years since our founding looking 
at performance-based management in government at the Federal, 
State and local level, and the question we always ask is, how 
do you instill and implement a performance-based management 
system in government. It is not like in the private sector, 
there are different rules, and hopefully some of the commentary 
we share today will inform you and help you in your 
deliberations on how to improve the Results Act.
    First, the Government Performance and Results Act provides 
all the statutory framework that Federal agencies need to 
manage for results. We do not need to go and refine the 
existing framework in terms of what it requires agencies to do. 
It asks agencies to develop a long-range plan, to translate 
that long-range plan into an annual plan, to set performance 
measures, to look at results, and to figure out whether the 
outcomes are being achieved, not just activities; and 
ultimately it asks agencies to link this to their annual budget 
request so Congress can deliberate over where the resources can 
go to have the greatest impact.
    So as a system or a framework for results-based management, 
GPRA hits the nail on the head. And it has taken a while to 
implement and there have been some bumps on the road, but the 
statute itself is sound.
    But as Ranking Member Towns pointed out correctly, 
implementation of the statute in each agency has been uneven. 
Some are taking it to heart and really implementing a 
performance management system and generating improved 
information for decisionmaking. Others, unfortunately, are 
treating it as yet another requirement mandate and generating 
reams of paper.
    There are several hurdles to fulfilling GPRA's promise to 
the American taxpayer. First, as has been noted, leadership. 
Agencies have to commit to results-based management.
    Second, the Federal Government has been slow to develop 
meaningful outcome measures. In looking at the outcome measures 
that have been set, most of them fall far short of taxpayer 
value and what Congress intended to accomplish with various 
programs. Many agencies resist outcome measurement because they 
feel they have no control over the outcomes. Whether kids have 
better reading and math and science scores or whether we have 
some sort of public health improvement in America, the question 
becomes, are we asking them to just measure things that they 
control or things that they are asked to influence on behalf of 
the American people.
    Second, agencies are setting far too many performance 
measures. When you add up the number of pages of GPRA 
performance plans filled with performance measures, you come up 
with a total of 16,000 pages produced by Federal agencies 
annually filled with data and performance measures. Most of 
these are measures of effort or activity, not results, and so 
too many measures are being collected.
    Third, there is no coordination among similar programs to 
see how various Federal expenditures can be coordinated and we 
can work with State and local government to achieve outcomes 
for the American people.
    Finally, when people ask, how do you lead performance-based 
change in an agency, how do you make this real and relevant, we 
always respond by suggesting they have to hijack three systems 
within the agency.
    First, hijack your budget. Require that Federal program 
managers submit their budget to OMB and ultimately to Congress 
using clear performance goals and measures of the agency as a 
guide. If they do not show how their program contributes to the 
outcome, then they should not receive funding.
    Second, hijack your personnel system. Require that agencies 
hire, recruit, retain and reward on the basis of contribution 
to mission. We have to move from a pay system where everyone 
talks about ``the salary increase'' to a pay system where they 
talk about ``my salary increase because my contribution to 
agency mission was recognized.''
    Finally, hijack the grants and acquisition system. We have 
to start moving toward a performance-based contracting, a 
performance-based grants, and a performance-based partnership 
system where resources are transferred on the basis of results 
and our partners are held accountable.
    All of these initiatives received a major shot in the arm 
with the President's management agenda. The President's 
management agenda does not supplant, does not replace, instead 
it complements the Government Performance and Results Act in 
two key ways.
    First, it demands accountability and attention be paid by 
agencies to measure, plan, and budget by results. It was an 
important thing for the Office of Management and Budget and the 
President to put their name behind GPRA finally. In the initial 
years of GPRA, we did not see that level of leadership.
    Second, integration. What the President's management agenda 
does is, it looks at five elements of results-oriented 
management: budget performance integration, strategic 
management of human capital, improved financial management, 
competition and streamlining, and e-government and says, how do 
these, all five, capacities contribute to mission attainment. 
So integration and accountability.
    You heard mention of the PMA, GPRA and PART, and how do 
they relate to each other. I have always summed it up this way: 
GPRA was Congress' statutory challenge to the executive branch. 
The PMA is this administration's response to, yes, we will be 
accountable, yes, we will have integration. PART is the quality 
control mechanism to evaluate the various plans and measures 
generated by agencies.
    In conclusion, what are some of the next steps to improve 
the results of the so-called Results Act? First, I would sum it 
up with Congress needs to be engaged. You must engage in the 
review of these strategic plans and performance measures. What 
do you think about the 16,000 pages of performance goals and 
measures? Are there goals and measures on those 16,000 pages 
that you believe are more informative that the American people 
should focus on, that oversight hearings and authorization 
hearings should focus on?
    We urge you to have your agencies come forward with their 
strategic plans and performance measures and evaluate them as 
you reauthorize Federal programs; and you can take a page out 
of the PART and look at 20 percent of Federal programs a year.
    Second, Congress should institutionalize program review and 
assessment. You do not have to endorse the PART, but you should 
endorse OMB's aggressive review of program performance 
information.
    We strongly encourage passage of your legislation, Mr. 
Platts, for the pure purpose we should have some sort of 
assessment, whether it is PART or whatever the new 
administration or next administration might want to call it, 
but a systematic, methodological, and evidence-based way of 
looking at performance measures and weeding out bad ones and 
focusing on good ones.
    Finally, we believe you should put a cop on the beat. We 
are suggesting that Congress create a Congressional Office of 
Program Performance that would give Congress its own capacity 
for performance review. Congress would be able to use the COPP 
office to sort through all of the reams of data and measures 
and plans that congressional Members and congressional offices 
are inundated with each year.
    I have talked to many Members of Congress and committee 
members that tell me they do not feel that they are at a 
shortage of information, but what they are looking for is 
quality information that can inform congressional 
decisionmaking. Well, a COPP office can be that filter by which 
Congress evaluates performance information.
    A second important function of the COPP office would be to 
peer-review any ratings or rankings that the OMB publishes each 
year should your legislation pass, Mr. Platts.
    Finally, we would suggest that the minority and the 
majority of each Chamber be allowed to select up to 5 percent 
of Federal programs for the COPP office to do its own 
independent evaluation of each year. Congress needs to invest 
in its own independent capacity for program review. This is 
something that could be staffed by the General Accounting 
Office and the CBO, but it is not just the purview of either 
one of those subagencies. It has to be given its own charter 
and its own focus.
    In conclusion, these issues of performance evaluation of 
Federal programs will only become more important in the coming 
years. During this year's budget, we have seen the percentage 
of nondefense discretionary funding fall to 18 percent, which 
means that the dinner table for domestic programs is getting 
smaller. It is harder to figure out where to put our scarce 
resources.
    If we can implement GPRA fully, Congress can have better 
information, the American people can have better information as 
to what works and what does not.
    Ultimately, GPRA should be judged by its ability to deliver 
three principles for the American people: improved performance, 
enhanced accountability and expanded transparency. By 
congressional engagement, you can improve implementation of the 
Results Act and help us achieve those three principles.
    [The prepared statement of Mr. DeMaio follows:]

    [GRAPHIC] [TIFF OMITTED] T5196.033
    
    [GRAPHIC] [TIFF OMITTED] T5196.034
    
    [GRAPHIC] [TIFF OMITTED] T5196.035
    
    [GRAPHIC] [TIFF OMITTED] T5196.036
    
    [GRAPHIC] [TIFF OMITTED] T5196.037
    
    Mr. Platts. We have been joined by Mrs. Maloney.
    Mr. Keevey.

     STATEMENT OF RICHARD F. KEEVEY, DIRECTOR, PERFORMANCE 
     CONSORTIUM, NATIONAL ACADEMY OF PUBLIC ADMINISTRATION

    Mr. Keevey. Mr. Chairman, members of the subcommittee, I 
appreciate the opportunity to testify at this hearing.
    I am the director of the Performance Consortium at the 
National Academy of Public Administration, and I have been a 
manager and principal executive at both the Federal and State 
levels of government. I have been a State budget director, a 
State controller, and in the Federal Government I have served 
as the Director of the Defense Finance and Accounting Service, 
the Under Secretary for Financial Management for the Department 
of Defense, and the Chief Financial Officer at the U.S. 
Department of Housing and Urban Development.
    Over the course of 40 years in management, I have seen many 
a budget system and a lot of new ideas come and go, and I have 
seen my fair share of failed attempts to improve government 
performance.
    When I joined the Federal Government in 1994, GPRA had just 
been initiated. I inquired then as to what it entailed and was 
told that GPRA involved strategic planning and the 
establishment of effective outcome performance measurements. My 
response was, I have been there and I have tried that.
    Four years later, as the CFO at HUD, I was developing the 
Department's first strategic plan, and while I obviously 
thought the endeavor had a lot of initiative behind it and had 
a lot of momentum, I did not think it had enough traction to be 
effective in the long run.
    Fortunately, I was wrong in both of these instances because 
there is no doubt in my mind that GPRA has made steady progress 
during these past 10 years. Indeed, GPRA has been successful, 
and I think will only get better as we move forward and better 
integration is achieved with other results-oriented initiatives 
already under way.
    The GAO report is correct when it concludes that 
``Significant progress has been made in installing a focus on 
results in the Federal Government.'' Furthermore, projects 
under way at the National Academy of Public Administration 
confirm this view.
    Prior to GPRA, many agencies made few attempts to link 
budgets to results. There was no stated relationship between 
agencies' strategic plans, if in fact they had one, and their 
requests for funding. There was little or no interest in the 
cost of programs, the cost of achieving objectives, and the 
relationship between cost and performance. Then along came 
GPRA. GPRA stimulated the process of planning, targeting and 
reporting on what government was achieving.
    At first, progress was slow. Despite leadership from OMB, 
there was inconsistent achievement among agencies. Some took it 
very seriously, others just hoped it would go away. Many 
strategic plans were filled with a lot of good intentions, but 
not a lot of sophistication. There were numerous measures that 
showed workload and outputs, but not a lot of outcomes, and 
very little connection between cost, work, results, and 
budgetary requests.
    Today, however, many managers and agencies routinely manage 
for outcomes. Public benefits achieved and the related costs 
are now the definition of outcome rather than simply workload 
information. And the lexicon of performance management is now 
the norm for senior agency managers and top executives.
    There is no doubt in my mind that these very aggressive 
goals set out by Congress in the GPRA legislation have been 
achieved in most cases. But more needs to be done to further 
enhance these achievements, particularly regarding the 
development of more sophisticated outcome measures and the use 
of information in making budgetary decisions.
    One of the earliest issues government executives faced in 
implementing GPRA was the development of meaningful performance 
measures. Historically, governments at all levels tended to 
focus on activities or outputs as the means to measure program 
effectiveness or program success. Therefore, it was quite 
natural in the early stages of GPRA that this trend would 
continue. Developing outcome-oriented performance measures was 
and still remains very difficult, but significant progress is 
being made.
    In government, budgets drive policy and control resource 
allocation. To that end, we need to press forward on tools that 
enhance program analysis and evaluation for GPRA to be 
completely successful. Accepting that premise, I believe that 
steps already undertaken by the Office of Management and Budget 
to introduce the Program Assessment Rating Tool is a decision 
that will lead toward a better results-oriented focus.
    GPRA provides the overall framework for performance 
management. However, the GPRA process must be connected to an 
effective budgetary decisionmaking process such as PART or some 
future iteration of PART.
    My years of experience tell me that unless an instrument 
like PART becomes an annual event, the fruits of the GPRA 
process will not be fully realized. In my judgment, nothing 
succeeds in forcing effective program management more than 
effective and frequent program evaluation.
    PART can certainly be improved. For example, OMB now needs 
to select activities for evaluation that will facilitate cross-
cutting comparisons of programs that focus on the same outcome. 
But in my opinion, GPRA and PART are perfect together. One 
should not be a substitute for the other, but both are needed 
to enhance performance management and to improve budgetary 
decisionmaking.
    Finally, the executive and the legislative branches need to 
work together and more aggressively so that both GPRA and PART 
or a similar tool are used in a complementary fashion by both 
branches of government.
    Thank you, Mr. Chairman.
    Mr. Platts. Thank you, Mr. Keevey for your testimony.
    [The prepared statement of Mr. Keevey follows:]

    [GRAPHIC] [TIFF OMITTED] T5196.038
    
    [GRAPHIC] [TIFF OMITTED] T5196.039
    
    [GRAPHIC] [TIFF OMITTED] T5196.040
    
    [GRAPHIC] [TIFF OMITTED] T5196.041
    
    [GRAPHIC] [TIFF OMITTED] T5196.042
    
    [GRAPHIC] [TIFF OMITTED] T5196.043
    
    [GRAPHIC] [TIFF OMITTED] T5196.044
    
    [GRAPHIC] [TIFF OMITTED] T5196.045
    
    [GRAPHIC] [TIFF OMITTED] T5196.046
    
    [GRAPHIC] [TIFF OMITTED] T5196.047
    
    Mr. Platts. Ms. McGinnis.

STATEMENT OF PATRICIA McGINNIS, PRESIDENT AND CEO, THE COUNCIL 
                  FOR EXCELLENCE IN GOVERNMENT

    Ms. McGinnis. Thank you, Mr. Chairman and Mr. Towns.
    The Council for Excellence in Government is made up of 
leaders in the private sector who have served in government, 
and our focus is squarely on improving the performance and 
results of government and also increasing the participation and 
confidence of citizens in their government. So it is all about 
accountability.
    We are very interested, obviously, in the Government 
Performance and Results Act. In fact, I testified last year 
before the full committee on GPRA and was very pleased to see 
that you've included in your legislation one of our 
recommendations that the timing of these reports coincide with 
Presidential terms so this can be more of a routine policy 
consideration.
    There are a number of missing links in the way GPRA has 
been implemented, and I compliment GAO and this report on both 
pointing out the improvements and also identifying some of 
those missing links. Most of the GAO report focuses on the 
executive branch and using GPRA in the management of programs. 
There is also some focus on the role of Congress, which we have 
suggested for a long time. I thought, when I read it, it would 
be very interesting if GAO would, in addition to interviewing 
and surveying executive branch leaders, use some of those same 
approaches with congressional leaders, committee members and 
congressional staff to really get a good idea of the potential 
for increasing the use of this work, the performance reports 
and measures in the appropriations and authorization process, 
in addition to the oversight process.
    I want to talk about three issues which I think need some 
additional attention. One is connecting the performance plans 
and reports to high-stakes management and budget decisions, and 
that has been discussed quite extensively by my colleagues. 
Also the expansion of the use of rigorous program evaluation, 
and Jonathan Breul alluded to that, and it is certainly 
included in the GPRA legislation; and then reporting the 
results to the public.
    PART has gone a long way toward making a connection between 
performance measurement and performance reporting and 
budgeting, and that is terrific. In fact, including this 
performance information in annual budgets makes a lot of sense.
    I noticed in the GAO report that only 55 percent of Federal 
managers report having outcome measures at this point, and even 
though that is an improvement over time, there is still a long 
way to go. If there were a very strong connection between these 
measures and the budget, and also if these measures were 
included in appropriations reports, for example, I think you 
would see that number of 55 percent go up in a hurry if the 
outcomes of budgeting and appropriations depended on the 
quality of such measures.
    On the rigorous evaluation--and this is really important 
because what I am talking about is something that goes beyond 
measuring performance of a program in a fairly short-term 
timeframe--GPRA is terrific in talking about the importance of 
program evaluation to decisionmaking, but we do not see that 
has been emphasized over the 10 years that GPRA has been in 
effect.
    We have been working with OMB at the Council on their PART 
guidance to include some stronger language about rigorous 
evaluation of the net impact of different approaches that might 
be included in a program, and I would actually encourage you, 
in looking at your legislation, to consider adding some 
language in terms of reviewing reports that would allude to 
what I am talking about. And, of course, the gold standard for 
rigorous evaluation is randomized controlled experiments where 
you actually use randomization and you can determine the impact 
of one approach as opposed to another, because that is the only 
difference between the two population groups.
    Of course, there are other methods that could be used, and 
you choose the method depending on the timeframe and the nature 
of the problem, etc. But this is really important in the long 
run for us to actually move the needle on some of these tough 
problems, and we have data and we are getting better data, but 
I don't think the needle is moving fast enough for any of us.
    In terms of public reporting, this is, I think, just a 
tremendous weakness of the implementation of GPRA. There is a 
wonderful requirement for annual public reports on results, and 
I am sure that most people in this country would like to hear 
on an annual basis how we are moving the needle on issues that 
they care about, and so I thought I would take a look, before 
coming over here, at some of those performance reports, just 
thinking in my role as a citizen how this would look to me.
    Here is one. It looks like a telephone book. I don't think 
anyone who is not very sophisticated could get through this. I 
am not going to name the agency because you would see the same 
thing with almost any agency.
    I did notice the improvement in one agency from this to 
this, and that is good, but I think we need to get out of the 
box here and think about reports that would actually be useful 
to people who need these tools to hold government accountable. 
How we do that? It is hard to legislate clear report writing. I 
think Mr. DeMaio has a point when he urges focusing on a few 
priorities.
    I would suggest it would be wonderful if we had a 
governmentwide performance report every year that took the top 
priority items and told the American people where we are using 
high-quality data in moving that needle and showed some trend 
data; showed something about the challenges and talked about 
strategies in the future. Again, this takes a serious 
commitment to making that connection between performance and 
how the American people can hold government accountable. But I 
think if we could do this it would go a long way to advance the 
use of this data and integrating it in a very strategic way.
    Mr. Platts. When you held up the reports, I thought of the 
general public using it, and that is just one. It takes me back 
to my public administration class days when I was given the 
assignment to go through one of those reports and make informed 
commentary on the--getting down from 16,000 pages to something 
more manageable.
    [The prepared statement of Ms. McGinnis follows:]

    [GRAPHIC] [TIFF OMITTED] T5196.048
    
    [GRAPHIC] [TIFF OMITTED] T5196.049
    
    [GRAPHIC] [TIFF OMITTED] T5196.050
    
    [GRAPHIC] [TIFF OMITTED] T5196.051
    
    [GRAPHIC] [TIFF OMITTED] T5196.052
    
    [GRAPHIC] [TIFF OMITTED] T5196.053
    
    Mr. Platts. Next, we have Mr. Mercer.
    When I referenced the ``father of GPRA,'' it was your work 
as a staff member for Senator Roth when this legislation was 
created. You certainly bring an important perspective as one 
who was involved in the creation of this program and 
requirement and a perspective on where we are 10 years later. I 
appreciate your being here.

    STATEMENT OF JOHN MERCER, GPRA & PERFORMANCE MANAGEMENT 
                            SERVICES

    Mr. Mercer. Thank you, Mr. Chairman and Mr. Towns, for the 
opportunity to be here and testify about the implementation of 
the Government Performance and Results Act. I am going to hop 
through my testimony, the full written testimony, which I 
understand will be inserted in the record. I will just read 
excerpts from it.
    I am John Mercer, an independent consultant to government 
agencies on performance planning, budgeting, and management. 
Previously I served for 13 years on staff in the Congress, 5 
years in the House and 8 as counsel to the Senate Governmental 
Affairs Committee.
    During my service on the Governmental Affairs Committee 
from 1989 to 1997, my primary responsibility was development 
and oversight of Federal management reforms. My involvement 
with GPRA includes having proposed the idea for that law to 
Senator Bill Roth, then having been asked by him to lead the 
development of the legislation and to oversee its enactment and 
initial implementation.
    I will look at a few of the things that have happened over 
the last 10 years. Some of the ways in which GPRA has had a 
positive effect over the last 10 years in creating a 
governmentwide focus on results include the steady improvement 
in strategic and performance plans shows that Federal agencies 
have become significantly more results-oriented in their long-
term and annual planning. In the best plans the relationship 
between dollars and results is becoming increasingly 
transparent and there is an increasing sense within agencies 
that what GPRA requires is actually just good business practice 
and ought to be done regardless of any law.
    Turning to page 4, I will touch on some of the challenges 
that agencies face. Some of the challenges that agencies face 
in measuring performance and using performance information in 
management decisions include the following: cascading the goals 
and strategies of the departmental and bureau plans down 
through all levels of organizational subunits, thereby linking 
long-term goals to day-to-day activities; integrating the 
budget with performance information at the program activity and 
task level by implementing effective managerial cost accounting 
systems to show full costs of programs and, ideally, the unit 
costs of activities and outputs; getting timely, accurate 
performance data to managers throughout the year so that they 
can actually manage their programs for results; strengthening 
the linkage between the agency's support functions and its 
programs by ensuring that the support functions such as CFO, 
CIO, HR, etc., measure how well they help the agency achieve 
its programmatic goals; and last, ensuring the validity of the 
reported results.
    Agencies are actually getting better at identifying 
meaningful outcome-oriented goals and the annual performance 
measures that support these long-term targets. This has been a 
major issue of attention by GAO evaluators, as well as a 
primary focus of OMB's PART assessments. However, unless these 
top level goals cascade all of the way down through the 
organization and connect to day-to-day activities, all the 
agency really has is a wish list, we hope to achieve these 
goals, and not a real plan.
    If you will move ahead to page 6, I would like to talk 
about continuing the shift toward a more results-oriented 
focus. To continue this shift toward a more results-oriented 
focus, I would like to address two things in particular that 
need to happen. Program performance and results will have to 
have real consequences, both for the programs themselves and 
for the managers involved. Second, there needs to be a much 
greater degree of congressional involvement in using the GPRA-
related performance plans and reports both in the 
appropriations process and in conducting general oversight.
    Having clear, complete and comprehensive performance plans 
and reports is not an end in itself. Developing high-quality 
plans will be seen as little more than a paperwork exercise if 
the results from implementing those plans has no impact on 
agency budgets, program structures and processes, or managerial 
evaluations.
    And then I would like to move to page 9 of my testimony.
    Finally, Congress itself has a very important role to play 
in ensuring a continued shift toward a more results-oriented 
focus by the Federal Government. Congressional interest or lack 
thereof in this subject sends a strong signal to agencies about 
whether program performance and results matter. Agencies do 
read these signals and react.
    So far, Congress has generally not shown a great deal of 
interest in the substance of agency plans or performance 
reports or even suggested how to make them more useful.
    Now if I may vent a little frustration here, back in the 
early days of GPRA and developing it, I had hoped that the 
Committees on Appropriation would become much more supportive 
of agency efforts to integrate plans and budgets into program 
performance budgets. I had hoped that they would welcome a 
chance to examine and critique program goals, strategies and 
results when deciding program funding levels.
    I had also hoped that the authorizing committees would find 
these plans and reports to be a font of interesting and useful 
information. I had imagined real oversight hearings with 
members referring to specific pages and items in the long-term 
and annual plans and in the annual reports while drilling 
agency officials over their strategies to achieve measurable 
results or why past performance did not match the goals.
    I had imagined committee and floor debates with members 
arguing about how best to measure a program's performance, even 
offering amendments to change the indicators of success or to 
increase the target level of performance.
    Despite my years of experience on Capitol Hill, I had 
rather naively expected a more enthusiastic response to GPRA 
plans and reports than we have seen so far.
    In an effort to suggest how these GPRA plans and reports 
and related analyses by GAO and OMB might be used to conduct 
better agency oversight, I have developed a guide for Congress. 
Because this guide is intended to help point in the direction 
of more comprehensive and effective oversight, I call it the 
COMPAS, the Congressional Oversight of Management and 
Performance Accountability Scorecard [COMPAS]. I have included 
it attached to my testimony for reference. It may serve as an 
illustration of how congressional committees can become more 
active in supporting a results-oriented Federal Government.
    I should add that while it is cast as a scorecard, it is 
really intended primarily to serve as a guide and suggestion as 
to how issues should be covered in a real, comprehensive 
oversight hearing.
    In conclusion, I think that all too often programs and 
funding levels have been justified on the basis of need and 
good intentions, that is, how big the problem is and a general 
conviction that the more we spend, the better we will address 
it.
    GPRA is essentially a statement that good intentions aren't 
good enough anymore.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Mercer follows:]

    [GRAPHIC] [TIFF OMITTED] T5196.054
    
    [GRAPHIC] [TIFF OMITTED] T5196.055
    
    [GRAPHIC] [TIFF OMITTED] T5196.056
    
    [GRAPHIC] [TIFF OMITTED] T5196.057
    
    [GRAPHIC] [TIFF OMITTED] T5196.058
    
    [GRAPHIC] [TIFF OMITTED] T5196.059
    
    [GRAPHIC] [TIFF OMITTED] T5196.060
    
    [GRAPHIC] [TIFF OMITTED] T5196.061
    
    [GRAPHIC] [TIFF OMITTED] T5196.062
    
    [GRAPHIC] [TIFF OMITTED] T5196.063
    
    [GRAPHIC] [TIFF OMITTED] T5196.064
    
    [GRAPHIC] [TIFF OMITTED] T5196.065
    
    [GRAPHIC] [TIFF OMITTED] T5196.066
    
    [GRAPHIC] [TIFF OMITTED] T5196.067
    
    [GRAPHIC] [TIFF OMITTED] T5196.068
    
    [GRAPHIC] [TIFF OMITTED] T5196.069
    
    Mr. Platts. Thank you, Mr. Mercer. And your closing 
statement there, ``Good intentions aren't good enough 
anymore,'' I think is really the focus here. We need to be 
results-driven and not just intend to do good work but ensure 
that we are doing good work. Good capsule summary of our 
efforts.
    Mr. Metzger.

  STATEMENT OF CARL J. METZGER, DIRECTOR, GOVERNMENT RESULTS 
                             CENTER

    Mr. Metzger. Thank you, Mr. Chairman.
    With respect to your questions regarding the effects of 
GPRA, I commend the Congress for the well-conceived GPRA 
framework that the Congress conceived, with John's help, your 
management reform scrutiny, including the scoring and the use 
of the GAO to provide indispensable guides and analyses that 
have proven so helpful to agencies.
    During the initial stage of 6.5 years, practitioners were 
simply producing GPRA documents that addressed requirements in 
a timely manner. It was apathy, cynicism or confusion. 
Identifying outcomes seemed too difficult to many, but you are 
well aware of those early problems.
    Practitioners organized informal interagency working groups 
to share their progress. Some top leaders but very few program 
managers were engaged. Nevertheless, the period may be 
characterized by stating there were pockets of results.
    Progress and congressional scoring gained some top 
leadership attention to GPRA compliance. Since that first cycle 
culminating in the performance reports for fiscal year 1999, 
the current stage of progressive implementation and management 
has been marked primarily by the PMA budget and performance 
integration and the PART to increase commitments from top 
leaders and managers of programs.
    PMA initiative owners coordinate and report quarterly. Over 
400 programs have been PARTed. Top leadership is accountable 
for results through performance agreements. Such agreements 
have also been imposed on many lower level political appointees 
and managers.
    Commonly, departments and major independent agencies have 
organized themselves for getting to Green in every initiative 
by appointing a coordinator who is charged with planning 
improvements and reporting quarterly on progress and status.
    The GPRA required strategic plans be clearer, more succinct 
and integrated for all components. Annual performance plans are 
better aligned with strategic plans and now with the budget as 
performance budgets. Annual reports are sensibly joined for 
both performance and financial accountability.
    Incorporating the program-specific PART has reinforced the 
entire process. And this committee's legislative initiative to 
require evaluations of all programs within every 5 years is 
important.
    Priorities may shift, of course, but by and large, GPRA's 
process intent of transforming to a results-oriented government 
has been institutionalized. This administration's broader 
management and program-specific efforts may be characterized by 
saying there has been a change from pockets of results 
progress, to transforming results-oriented cultures in process.
    There are still many weaknesses to overcome, but the 
Clinton administration prepared the ground and started the 
infrastructure. The Bush administration has laid a concrete 
GPRA foundation. To be sure, challenges abound, not the least 
of which is identifying outcome goals and strategies, measuring 
outcome performance with the data that are valid, reliable, 
timely, relevant and reasonable cost-of-collection and 
monitoring and reporting through cost-minimized, effective, 
enterprise-wide performance management systems.
    Challenging, too, is making available performance and 
results information that is useful to customers, stakeholders, 
agency leaders, program managers and individual employees for 
planning decisionmaking, execution and management.
    Performance measurement development, especially outcome-
related, is still elusive for many kinds of agencies, 
especially those in R&D, grantmaking and regulatory affairs as 
was noted in the GAO report.
    Yet interagency groups of planners, performance budgeters 
and evaluators regularly meet to share lessons learned and 
better practices in those challenged communities of practice; 
emphasizing that performance information is helpful for budget 
justification to OMB, alternative strategic tradeoffs between 
sub-units for funds allocation, comparing sourcing costs or 
overlapping services identification; and encouraging the 
development of logic models and stakeholder participation, 
consensus on strategic goals and measures and utilization of 
reliable data and evaluation studies.
    Those groups monitor the release of GAO reports and OMB 
guidance such as evaluation studies or the 2006 PART, receiving 
explanations on usage and foster agencies learning and growth.
    For example, VA sharing about an external evaluation of 
their Cardiac Care Program underscores evaluations for value 
for other agencies at that meeting. And second, the VA sharing 
their six-page, 2003 to 2008 Strategic Plan for Employees, 
specifically for them, impressed other practitioners on 
communicating effectively. It was a clear example for achieving 
difficult-to-grasp employee alignment with an agency's 
strategic plan, promoting multi-level understanding of the fit 
of performance measures and PART reviews within their strategic 
framework, seeding considerations of linking resources to 
results and contributing to the use of performance information 
in budget formulation and management decisions.
    As to continuing the shift to a more results-oriented 
focus, one factor that has never changed since the GPRA was 
signed into law has been the paramount importance of top 
leadership commitment to results-management as has been stated 
by several on this panel. While such commitment today is still 
not totally consistent, President Bush has made progress by 
requiring performance agreements and reporting quarterly on 
their status and progress on his initiatives.
    It is true that some Federal managers continue to have 
difficulty setting outcome-oriented goals, collecting useful 
and timely data on results and linking institutional program 
unit and individual performance measurement and reward systems.
    However, many agencies, today, are transforming their 
cultures to become more results-oriented. The challenge for 
every agency is to work toward integrating planning, budgeting, 
total costing, financial management, execution, technology and 
evaluation into effective performance-management systems in 
order to manage for results.
    Only one agency to date, NASA, has reached the Green status 
for budget and performance integration. They linked full cost 
budgets to goals in a single integrated document and instituted 
a management-information system. As with most agencies, they 
assign coordinators responsible to work the agency to Green for 
every management initiative. Multiple documents from fiscal 
2003 and before are now one in fiscal 2004 and 2005 Integrated 
Budget and Performance Documents, IBPD as they call them, with 
marginal cost analyses, helping them to say if they gain 
additionally, how much funding will result in so-and-so result.
    The benefits of the NASA system are that it provides a 
management dashboard; full views of major areas of investment 
across their enterprises, themes and programs are available to 
senior management, all employees and all working in the NASA 
domain; and provides full transparency into cost, schedule, 
management and performance status that permits an ability to 
assess their collective progress against the performance plan.
    While other agencies have not made as much integration 
progress as NASA, many have focused on recently beginning and 
developing results-driven systems and cultures. One example is 
NOAA, another science agency. NOAA is transforming its culture 
in a sea change manner by reorganizing itself to look anew for 
fiscal year 2006 at all aspects of strategic and performance 
planning, budget and performance integration, program 
management and reporting. Their objective is to instill in 
agency employees a sense that performance matters, that GPRA is 
in front of everybody, important to and including every 
employee as a contributor to the agency's strategic goals.
    Another agency, Farm Service Agency of the USDA, has been 
designated as a budget-and-performance management-system pilot 
for the entire Department of Agriculture. They have chosen to 
start with the basics of strategic-planning consensus with 
customers and stakeholders for moving toward a performance-
based, results-driven culture in order to serve their 
customers, 2.2 million registered farmers and ranchers.
    Much like NOAA and FSA, virtually all Government agencies 
are in different stages in their cultural transformation to 
manage for results. In the years ahead, the Government would 
profit by not only integrating and pulling everything together, 
but as GAO suggests, managing toward a succinct transparent 
Government-wide strategic plan that presents the Federal 
Government's broad strategic goals, performance measures and 
targeted results.
    At present, evaluations and scoring are only performed for 
the President's Selected Management and Program Initiatives, 
plus annually selected programs through the PART process. But 
what we recommend is the development of a performance 
management maturity model against which agencies would assess 
their process maturity.
    A good example for adaptation may be found in GAO's just 
published Executive Guide for IT Investment Management 
Framework. The framework suggests assessing and improving 
process maturity of five increasing mature stages and 13 
processes critical for success in IT investment management.
    A similar framework for a performance management enterprise 
maturity model would be helpful. Any Government entity's level 
of maturity as a government performance management enterprise 
could be assessed in accord with the model so that tactics 
could be fashioned to reach the next stage of improvement.
    Mr. Chairman, thank you, I hope this testimony will assist 
you in your continuing effective Government management reform.
    [The prepared statement of Mr. Metzger follows:]

    [GRAPHIC] [TIFF OMITTED] T5196.070
    
    [GRAPHIC] [TIFF OMITTED] T5196.071
    
    [GRAPHIC] [TIFF OMITTED] T5196.072
    
    [GRAPHIC] [TIFF OMITTED] T5196.073
    
    [GRAPHIC] [TIFF OMITTED] T5196.074
    
    [GRAPHIC] [TIFF OMITTED] T5196.075
    
    [GRAPHIC] [TIFF OMITTED] T5196.076
    
    [GRAPHIC] [TIFF OMITTED] T5196.077
    
    [GRAPHIC] [TIFF OMITTED] T5196.078
    
    [GRAPHIC] [TIFF OMITTED] T5196.079
    
    [GRAPHIC] [TIFF OMITTED] T5196.080
    
    [GRAPHIC] [TIFF OMITTED] T5196.081
    
    [GRAPHIC] [TIFF OMITTED] T5196.082
    
    [GRAPHIC] [TIFF OMITTED] T5196.083
    
    [GRAPHIC] [TIFF OMITTED] T5196.084
    
    Mr. Platts. Thank you, Mr. Metzger.
    And thanks to each of you for your oral testimonies here 
today as well as your written testimonies and, certainly, the 
wealth of experience and knowledge that you have shared with 
us.
    As we get into questions--I wanted to be flexible in giving 
each of you the time you needed for your opening statements--if 
we can try to be as succinct as possible, because I want each 
of you to have the opportunity to respond to questions. And 
given the number of you, the more succinct, the more questions 
and issues we can address.
    I would like to start with kind of a broad question to each 
of you. It concerns your familiarity with the strategic plans 
of the various departments and agencies. If you had to pick 
just one that you think is the best example, or one of the best 
examples in using GPRA which really embraced it and ran with 
it, to the benefit of the services being provided, and those 
receiving services from whatever department or agency?
    And also if there is one you think is the worst example of 
what not to do and how GPRA is not being understood and 
embraced?
    You all, or any one of you, are free to respond to the best 
example or the worst example? Who would like to go?
    Mr. Keevey. In addition to NASA, I think Labor has produced 
a very good report, and I think Education has done a pretty 
good job.
    Mr. Breul. I would agree. I think NASA is one of the 
stellar examples, particularly with all of the changes that 
have been going on there and the challenges they are facing. 
They have done an extraordinary job of being clear and crisp 
and taking that plan and cascading it down through all of their 
operations.
    Mr. Platts. Mr. Metzger touched on that connecting to the 
budgeting and actually having a plan. Anyone want to take a 
shot at the worst?
    Ms. Dalton. I don't think I want to take a shot at the 
worst.
    What we found was that all of them are improving. Some of 
the better ones, I think, have been mentioned here. I would 
also add the Department of Transportation into that category. 
They initially were one of the leaders and have continued to be 
a leader in strategic planning and overall performance planning 
and management.
    Mr. Mercer. I won't put this in the category of saying that 
it is the worst because that implies that I looked at all of 
them.
    I will tell you one that was not very good and the reason I 
am willing to tell you is that it was not very good until 
recently when they hired me to help them improve it.
    With that caveat, SBA did not have a very good plan, and 
OMB told them that. And OMB was right. And they had to do a 
performance plan based on it and integrate it with the budget. 
In late summer, they scrambled to revise it, and it was a very 
painful process, trying to do it very quickly and forcing them 
really back to square one, trying to define the outcomes that 
they actually do contribute to. Because an entity like SBA, you 
can imagine the grandiose kind of rhetoric about how, ``We are 
going to,'' and in truth forcing them through this discipline 
saying, ``No, we don't really help all small businesses. We 
help those that come to us and how do we know we are helping 
them compared to the rest of them?''
    Going through that and then devising strategies, now they 
are significantly better. They still have a good ways to go. 
They are working at it, and they know it and have made it a 
priority. But I would say that as of earlier in the summer, 
they did not a have very good plan.
    Mr. Platts. And that is--given their mission of guiding 
businesses, and if that agency doesn't do its own good 
strategic plan, what example are they setting for the 
businesses they are seeking to help, guide and develop?
    Mr. Mercer. There is a certain irony in them telling 
people, ``You ought to have a good business plan if you want to 
succeed.''
    But again, it's a problem that a lot of agencies have when 
they sit down and just off the top of their head think, what 
are we trying to accomplish? And the goals become very lofty 
and you can imagine the soaring rhetoric. And then when you get 
down to actually setting targets, it tends to be activity. So 
when you say, wait a minute, you are doing a lot of activity, 
but the goal, how do you measure that?
    And in truth, sometimes you have to lower your goal to what 
you really do have an impact on and not all small businesses, 
because all small businesses do not come to SBA for help. And 
how do you know which ones? And so you start developing 
measures based on what percentage of startups and small 
businesses under a certain size actually succeed 3 years later. 
OK. We are going to say, ``Anyone who comes in the door that we 
help ought to be able to beat that target,'' you know, things 
like that.
    Mr. Platts. Definitive analysis. And now that we know you 
are on the hook of helping to refine their plan, we know their 
next one will be in great shape.
    Mr. Mercer. There is more work to be done.
    Mr. Platts. Mr. Metzger.
    Mr. Metzger. Just commenting on your initial query, any 
department or agency undergoing change drastically, such as 
Homeland Security, would be challenging for the planning 
effort.
    Those departments, such as Treasury or Transportation, who 
have been downsized by sending components over to DHS, those, 
too, are challenged by their planning efforts. So those will be 
troublesome to do.
    But as I suggested, referring to the results-oriented 
culture aspect of things, what we see is where agencies enter 
in and say, ``We want to engage our program managers along with 
representatives of line offices or functional offices,'' and 
they really go into it, because in the managers of program 
case, they are getting scored on the PART process and that 
engages them to a greater extent than ever before.
    But it takes that kind of almost grassroots approach to say 
where we are strategically, where are we going in our 
milestones and targets to go toward that 5-year or in the NASA 
case, 25-year horizon, and to work toward that and see it as a 
total cultural change.
    Mr. Platts. And I will turn to Mr. Towns.
    That comment about grassroots is how I see the partnership 
between PART and GPRA, going from that strategic long-term plan 
and into the grassroots, how you are doing it and why they 
complement each other well.
    Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Let me begin with you Ms. McGinnis. You said something I 
thought was very interesting, the term of office should 
coincide with that. Is the reason you wanted that to happen was 
because of being sensitive to the political shifts, or is it a 
better structure for the managerial priorities? I mean, that 
point is not clear to me.
    Ms. McGinnis. If we are talking about having goals and 
priorities and measures that are connected to the budget and 
reflect the overall policy priorities, I think it has to be 
connected to the leadership of the executive branch of 
Government.
    And so having it on that 4-year cycle and requiring the 
first plan--I mean, you give a year to make the transition, 
establish the priorities, etc., but, yes, I think it is because 
of this importance of connection to policymaking and budget, 
absolutely, regardless of who is in office. This is not a 
political statement. It is really just a statement of what good 
strategic planning should look like.
    Mr. DeMaio. And Mr. Towns, I would go a step further and 
say that Congress needs that same right or opportunity to 
engage, in that congressional committees should be looking and 
scrutinizing individual program performance measures.
    The question of what is a good strategic plan for an 
agency, that is the 10,000-foot level. We don't authorize 
agencies or departments. We authorize programs, and that is 
where the PART really gets the measures down to a program 
level.
    We feel Congress should engage at the program level, 
because it authorizes programs, and have the same sort of 
opportunity to influence those plans.
    GPRA doesn't take politics out of budgeting. It is an 
inherently political process. The Federal budget process is 
inherently political. It is not economic.
    But with GPRA, we have an opportunity to insert performance 
into that political process. And so whether it is the 
administration having to basically come up with their policies 
in that first year of the term and then measure it or Congress, 
when it receives the measures, having to say, ``Yes, we accept 
them and we will hold the administration accountable using this 
measuring stick,'' or, ``We are going to refine it,'' both 
branches must engage using their existing tools. And one is the 
appointments process at the beginning, to do strategic 
planning, and the other is right of review over agency program 
budgets.
    Mr. Breul. What has happened recently because of the 
current statutory formulation, there is sort of a cicadian 
rhythm to the strategic plans. They are required to be revised 
at least every 3 years.
    And so what happened most recently was that the deadline 
fell with the fall of 2000 during a Presidential election, and 
that caused career officials some anxiety. But there is always 
suspicion by an incoming and outgoing administration that 
somehow there is a little bit of tilt in the way the plan might 
be structured.
    So the wisdom that is prevailing at this point is that it 
will be helpful to schedule those strategic plans at the 
midpoint of a Presidential term so the new administration would 
be in and have some familiarity with the programs and could do 
a structuring of it and still have some opportunity to use that 
plan before the next election. And it would take it outside the 
immediate calendar years of a Presidential election.
    Mr. Towns. I want to go to you.
    Mr. Mercer. Since the issue of the timing of the strategic 
plan cycle came up, Jonathan Breul just mentioned that the 
planning ought to be mid-term. I would agree with that because 
the legislation, Mr. Chairman, that you have developed, I 
understand the concept.
    And when the new administration comes in 1 year later after 
they have been in for a number of months and a new plan is 
developed, realistically, you don't get a lot of the people 
appointed in that first year who are actually going to be the 
political leadership who would have to sign off on these plans.
    It may be that it should be after they have been in for 2 
years because a lot of them will have been in just a year. And 
once they come in, they are not going to want to be confirmed 
and then a month later the plan is due and are they going to 
sign off on it.
    So we have to think about that. I don't know if it is 2 
years or 1 year or something in between or 1 year but then some 
flexibility. I still like the idea of a 5-year plan revised 
every 4 years and somehow made consistent with the Presidential 
election cycle so an administration comes in and can rightfully 
feel that they can overhaul the plan and nobody is scrambling 
at the end, shortly before a Presidential election to get a 
strategic plan out the door. Working through the practicality 
of it has to be worked on.
    Mr. Towns. Ms. McGinnis, what role should OMB play in this, 
if any?
    Ms. McGinnis. In what?
    Mr. Towns. In oversight of agencies in terms of the 
planning. Should OMB play any kind of role in this at all in 
terms of the coordinating?
    Ms. McGinnis. I think so. I think I would point to the PART 
process as an example of a very constructive role for OMB. OMB 
traditionally--the budget side of OMB is the strong, powerful 
side of OMB. To get budget examiners who are putting the budget 
together, working with their agency counterparts and their 
leaders in OMB to focus on management and performance requires 
some process to do that, because they are not naturally going 
to have the time or the information to do that.
    So making this a routine way of thinking that you are 
actually going to construct these budgets based in some part on 
how the programs are doing, how much they are improving--and I 
would say that the budget decisions are not all going to be to 
punish programs that aren't, you know, aren't moving the needle 
in the right direction and reward ones who are. It has to be 
much more strategic and thoughtful if a program is intended for 
a very purpose but it is not making a difference.
    And I think that is true of a lot of our domestic programs, 
to be honest. Then let's take a hard look at it. Let's try to 
figure out what the right measures are and look at some long-
term evaluation and try to come up with some changes in that 
program that might require some additional investment but that 
will begin to show some results.
    I think OMB has a big role to play in this. But the role of 
OMB--and I think the PART changes the perspective of OMB--is 
not to be the sort of green eye shades putting the budget 
together and the agency to be feared throughout the Government, 
but a constructive partner in trying to achieve a higher level 
of performance. So I think this PART review is important, and 
it should be integrated totally into the budget process.
    Mr. Towns. Thank you.
    I yield back.
    Mr. Platts. As we look to strengthen as we go forward after 
10 years, what do you think is going to be most helpful and 
most critical as we go forward? Is it having a mandatory 
Government-wide strategic plan as is suggested?
    Is it continuing to enhance the education of the actual 
managers and how to develop their GPRA plans and then use those 
in their agencies?
    Is it the PART process in that we make it statutory so the 
managers know that more grassroots review is going to be 
permanent as GPRA is?
    Does one of those or something else jump out as the next 
critical step as we try to enhance what GPRA is doing?
    Mr. DeMaio. The overall issue is you will find that things 
that are used will be improved.
    If you use the performance information that is generated 
under the Government Performance and Results Act, it will 
improve. Managers will develop capacities. They will start 
improving the way it is presented to Congress. They will start 
using it to drive decisionmaking. You use it. That is No. 1.
    And I think the PART has been a good tool in that it 
stimulates OMB's use because you have to sit down before your 
budget examiner at least once every 5 years, and you are going 
to be asked questions. And it is on a program level. It is not 
pie-in-the-sky GPRA strategic planning. It is on a program 
level.
    If Congress had a similar capacity, can you imagine if you 
had something like a COPP office that you really did 20 percent 
of its own programs based upon 5 percent from the majority and 
minority in the House and 5 percent from the majority and 
minority in the Senate. And they were doing 20 percent. They 
were peer reviewing OMB's 20 percent which could be the 
administration's priority programs.
    You would have programs being used--that information would 
be used on a quite regular basis. And they would recognize that 
we better put our best foot forward and have answers to these 
questions.
    So your use is needed. Anything that facilitates 
congressional use because certainly, as Pat had mentioned, 
facilitates the budget side of OMB using performance 
information. Anything that facilitates your use like a COPP 
office or some sort of requirement that performance measures be 
included in Appropriations Committee print or what-not, those 
things would be very helpful in the next 10 years in improving 
the quality of information.
    Ms. Dalton. I would say that there are two things, and one 
is following up on Carl's comments about the use of the 
information. However, it may not be another level of review, 
but how do you make the information that we have available more 
useful to those people that need to use it?
    Ms. McGinnis showed us the big fat books. We have a system 
of performance information and we have a lot of information, 
but how do we extract that information and put it into a form 
that you as a Member of Congress can find useful for your 
purposes, how agency managers can, how OMB can?
    I think that it is really important to extract the 
information, and present it in a way that is easy to use for 
the users. The American public isn't going to look through that 
thick book. They might look at a one-page summary or depiction 
of agency performance.
    The second thing that is needed is a Government-wide plan 
or some other mechanism that cuts across our current 
structures, whether it is the budget structures or the agency 
structures. We have programs, for example, that are helping in 
our education goals and all these programs are not in the 
Education Department. They are in Agriculture. They are in 
Labor. They are in Health and Human Services. So we need to 
break down those barriers.
    Mr. Keevey. The whole issue of cross-cut analysis is 
important, lots of programs going toward the same outcomes 
located in different areas that may be competing for resources 
when one is more effective than the other.
    Mr. Platts. Looking at economic development as one.
    Mr. Keevey. I think that is more aptly done in a budget 
analysis or program review or budgetary review process as 
opposed to an overall strategic plan.
    Second, there are lots of programs--and if I could pick one 
for example, and that is the whole intergovernmental flow of 
dollars, grant-in-aid programs, where it is very difficult to 
measure the performance because most of the dollars are being 
spent at a State level or a local level. The Federal Government 
may be providing a large part of it or they may be providing a 
small part of it, but there needs to be a better mechanism to 
get information and common indicators.
    We are structuring a panel next month to look at that. And 
I was talking with the folks at the Education Department, and I 
didn't realize this. They are actually going to each of the 
education departments throughout the States and trying to 
develop some common understanding and agreement on terms and 
measurements so that when we put information out about the 
performance of certain educational programs, they will have 
good dialog and information arriving from the States. I think 
that is one example where it is now difficult to measure the 
performance of grant programs where we can make a lot of 
improvements.
    Third point, there is a lot of talk about the discretionary 
programs. But I don't think the defense programs are exempt 
from this kind of analysis also. We talk about the small pie, 
needing more concentration to allocate resources from the 
domestic programs, but the same rigor is applicable to the 
defense expenditures, their half of the discretionary budget, 
and need to be focused for the same kind of analysis.
    Mr. DeMaio. Could I carry that on the entitlement?
    Mr. Platts. Mr. Breul is next, and I am trying to go in 
order as the individual has indicated by their interest.
    Mr. Breul. I think we have to look at those products that 
Pat McGinnis showed us and use them to understand that GPRA at 
this point is a reporting exercise. People see it in terms of a 
bound book, what I would call shelf work.
    I have almost become famous in the Government Accounts 
Association and the Mercatus Center, for a test I have been 
using on the plans. They asked me to review many of them, and I 
put them on a kitchen scale. Most weigh well over 3 pounds. 
That is simply unacceptable. You have to get them down to a 
much briefer and understandable fashion.
    Mr. Platts. Which goes to the comment as far as it actually 
being used and the likelihood of it being acted upon.
    Mr. Breul. A printed document is not going to be used these 
days. We have to force it into the way agencies conduct their 
day-to-day management, personnel evaluations, the way 
appropriations and authorization committees undertake their 
work and make the data routinely available whether it is 
through the Internet and other systems so it is available in 
ways that are useful for folks in whatever their line of 
business.
    Ms. McGinnis. That is a hard question, because we have all 
been trying to figure out where the leverage is. I agree that 
if we could think of something that would incentivize the 
appropriators to use this information, that would be my No. 1--
--
    Mr. Platts. Mr. Towns and I would like to know what that 
incentive is and encourage our colleagues to do that.
    Ms. McGinnis. Here is what I would say if I could say one 
thing: I like the idea of an annual Government-wide report that 
doesn't just--in fact, it shouldn't be a published document. 
Could be a dashboard or a Web application. But that should 
include and should look more like a corporate annual report, 
very small. It should include a critical few high-priority 
goals and measures and the results of some rigorous evaluation.
    If we had that every year, I think that discipline would 
encourage managers, would encourage the kind of strategic 
thinking and action that we are looking for around performance 
in the executive branch and perhaps also in the Congress if the 
public, if the constituents had access to such a usable set of 
information.
    And if it were a Web application, it could actually be 
updated and people could always go and look and see how their 
favorite--or how the things they are interested in are doing. 
And in fact, you could imagine a Web application that could 
allow people to tailor their own. They could decide what goals 
and priorities they are interested in and build their own sort 
of State of the Nation set of indicators and measures. I think 
that would be very different than what we are doing now.
    Mr. DeMaio. I wanted to clarify one thing, and it doesn't 
link up to the appropriations issue. GPRA applies to all 
programs except for, in a few small cases, for national 
security. The important things that agencies have not gotten in 
terms of measures on are the entitlement programs, and they 
feel it is not their responsibility.
    Like SSA, should we measure retirement security or should 
we talk about how quickly we cut the check? Should we talk 
about a strong agriculture system at FSA or how quickly we cut 
the check?
    And the question in my mind has always been, you are 
administering the law. Part of your responsibility is telling 
the Congress whether the law is having an impact in terms of 
outcome. So it is all programs.
    The reason why I focus on non-defense discretionary is 
because that is where you get the appropriators. That is what 
they are in charge of. Most of the Government's budget is on 
auto pilot. In the defense area, we know armed services plays a 
large role in where that money goes. So the appropriators' pot 
is what I am trying to focus on in terms of helping them inform 
their decisionmaking.
    This year in the budget, we did something to drive some 
sort of transparency in terms of how OMB is using it, and that 
is, we took their rankings of failed programs versus good 
programs. And we said, what was the increase that OMB 
recommended or the President recommended for a good program 
versus a bad program?
    And you know what, there is correlation. As a taxpayer, I 
am pleased with how they are using that to drive budget. Had 
someone been able to create a similar structure where you take 
the President's rankings or if we have a COPP system, the 
Office of Program Performance, what rankings they came up with 
and correlate it to spending levels as approved by the 
appropriators, if you had the sort of public transparency and 
if this report card was published every year when you got your 
taxes and you could go online and look at how your Member of 
Congress voted, I think you might see appropriators starting to 
look at the performance goals and measures.
    So you are not going to get some magic potion to finally 
get those committees to say, ``Yes, we are going to go over to 
House Government Reform, and we are going to talk to you about 
how to do GPRA.'' What you do is engage the public, and that 
pressure and that transparency drives behavior.
    Mr. Platts. Mr. Towns, did you have other questions?
    Mr. Towns. Back to you again, Ms. McGinnis. You mentioned 
that we should use GPRA and PART in a complementary manner. 
Could you go into that?
    Ms. McGinnis. I think they do complement each other because 
GPRA is creating the framework of a plan where you are setting 
your goals and your priorities and your measures and then PART 
provides the discipline in that framework to actually ask 
managers to focus on what their measures are and how they are 
doing on those measures and to integrate that into the budget 
process. I think they are completely complementary.
    Mr. Towns. Ms. Dalton, I want to hear from you on that.
    Thank you, Ms. McGinnis.
    Ms. Dalton. I would agree with Ms. McGinnis that they are 
integrated in that GPRA provides the base performance 
information and the PART process uses that information and 
tries to make those links with performance in making resource 
decisions.
    PART is really a tool. It is a means, a mechanism, to use 
the information that is generated through the whole performance 
measurement GPRA process and translate it into some of the 
decisionmaking processes in the executive branch. PART provides 
a systematic look at the information and a targeted way to look 
at information for decisionmaking.
    Mr. Metzger. I just would like to make that emphasis on the 
comment before. Early GPRA, one of our problems was engaging 
managers of programs. I believe GPRA and PART are essential 
together for that reason, that PART, being program specific, 
engaged lower levels of the department or agency than typically 
was true previously with the GPRA's strategic plans, 
performance plans.
    They seem to be more upper stratosphere by having the PART 
or something similar in the future. To engage the managers of 
programs, you get strength to the entire process.
    I would like to second, also, Ms. McGinnis' point about the 
Government-wide strategic plan and report. I believe it is very 
helpful to any enterprise, be it private or public, to think 
broadly about the enterprise as a whole, consider the various 
components, functions, mission, etc., of that enterprise, 
analyze those things but always thinking about the entire 
organization, its strengths, weaknesses, so that you can 
pinpoint exactly what has to be improved, maybe even fixed 
because it is totally broken.
    And with this kind of approach, that is why I suggested the 
performance management maturity model consideration in that you 
look at your components of what it takes to manage for results 
through a system. You analyze what is preferred. You help 
agencies target toward various levels of maturity, and in that 
entire process, you are going to gain improvements. Just like 
in the original question about what would be preferred as 
changes, probably the best answer is all of those things have 
to be attended to. And we have to prioritize them. But we have 
to really address them all and consider them all in how the 
Government as a whole operates so that we can improve its 
parts.
    Ms. McGinnis. Can I clarify one thing because--and this is 
a bit of a difference. I would suggest an annual Government-
wide performance report, not necessarily the plan. And it is 
sort of interesting, but--and I know the administration has 
responded, saying that the budget is the plan.
    I sort of like the idea of asking for a report if the plans 
are there, if the budget is there. And on these critical few 
priorities and measures, I think that is going to get us closer 
to what we want in terms of public accountability than starting 
with an elaborate government plan which I fear would look like 
this or the budget document.
    Ms. Dalton. I would just followup, where we have talked 
about a Government-wide plan, that currently is required under 
the Government Performance and Results Act. It has never been 
fully implemented. It was produced one time in 1999 and 
subsequently has been characterized that the plan has been the 
budget.
    The issue really is, the budget is structured by agency and 
by account and doesn't integrate across these lines. Certainly, 
Ms. McGinnis' idea of a performance report naturally would flow 
from a plan. A report, on how we did has to be a part of the 
whole process.
    Mr. Keevey. I have a lot of sympathy for the approach or 
the comments coming back from OMB. The Federal Government is a 
very, very complex organization.
    Mr. Towns. You are being kind.
    Mr. Keevey. It does a lot of things. To suggest that we 
could concentrate in a particular year on a priority or two and 
focus on that, I think is difficult because the priority in one 
person's mind is not a priority in the other person's mind.
    So the organization is complex. There are elements in the 
budget, albeit it has lots of volumes, there are components of 
the budget that could be pulled together perhaps in a better 
fashion and put out in a separate document that would hit the 
areas we are talking about, that is, give the overall strategic 
needs of the Government.
    But to suggest that it could be compressed so as to focus 
on certain priorities 1 year versus another year, I would argue 
that may not do justice to what the Federal Government is all 
about because it is so complex and has so many competing 
priorities that you may want to be a little bit more cautious 
about that.
    Mr. Towns. Mr. Mercer.
    Mr. Mercer. I share Mr. Keevey's concerns about trying to 
do something on a Government-wide basis. It would either be a 
massive document that nobody would use; or so generalized that 
the information may not be useful; or so selective that it 
would be political to make the administration look good, 
picking and choosing specific indicators.
    And we do get a lot of information that comes out about 
where the Nation is, the health, education, at a large level 
every year. I don't know to what extent something really large 
would be useful. If it would be useful, then certainly.
    There may be another approach, and I will offer it as a 
suggestion. If you are asking what is it that the public would 
be interested in, the public might be more interested in 
knowing about specific programs or agencies that they relate 
to, whether they are a veteran or somebody that is a community 
service organization that is interested in housing or education 
or whatever. And it is great to have these large documents.
    Realistically, I think what you want is to make it easy for 
the public to find pieces of information relating to programs 
or agencies that they are interested in. And one way to do that 
might be to include every year in the 1040 instructions that go 
out, two or three pages that just lists Web sites. I know not 
everybody has a computer or Internet service, but you can't 
mail everybody lots of reports. So realistically, that approach 
makes it easy for the public to see, at the time they are 
sitting down to prepare their taxes, where they can look if 
they are interested in a particular program, agency, to see 
what they are getting for their money. And that is how you 
would cast it.
    You know, this is where you could go to--and if you are 
interested in the National Park Service because you take your 
kids every summer to the parks and you look down and see the 
National Park Service Web site, and here is the link to the 
plans.
    You would have to make it easy. You would have to make it 
easy for them to follow, but just knowing where we are going 
with e-government and that sort of thing, I think a focus on 
that--and the easy way to do it would be to print the list of 
these sites in a document that everybody gets every year and 
looks at when they are doing their taxes and says, here is 
where you can look to see what you are getting for your money 
in particular aspects that might be of interest to you. That is 
a thought as to how to make the public connect to something 
like this.
    Mr. Towns. Good point. Thank you again.
    I yield back, Mr. Chairman.
    Mr. Platts. Thank you, Mr. Towns. Two other areas before we 
wrap up.
    Ms. Dalton, you talked about human resource management and 
your perspective. If you want to expand on it and others as 
well, on how developing strategic plans is actually being used 
from human-resource management and matching, what are their 
mission and goals and what are they supposed to be doing? How 
are they actually filling their human capital needs in 
achieving those goals?
    Ms. Dalton. One of the things in developing a strategic 
plan, the agencies need to and the Government needs to be 
looking at is, how are we going to achieve our goals? And the 
key is the people and having the right skills and mix.
    As you are developing your goals, you need to be looking at 
your people, the agency's people and saying, do I have the 
right skills to achieve these goals? If not, what kind of 
training do I need or how do I acquire that talent? And we need 
to be looking at that.
    There are a couple of things that can be done. Obviously, 
training and development needs to be focused on. Clearly, we 
need to look at how we translate the goals that are identified 
at the organizational level down to the subcomponents and 
ultimately down to the individual, a cascading of those goals 
down so that each person can take ownership and say, I am 
responsible for this, do I have the skills, do I have the 
knowledge to do this or is there somebody around that can help 
me accomplish these goals? There are a couple of things that 
need to be done.
    Mr. Platts. In your opinion, is that match occurring as the 
norm or is it more the exception when we are really seeing the 
use of strategic planning matching that with human resources?
    And I use an example. Our next hearing is in a couple of 
weeks with the SEC. As they are meeting the new challenges of 
Sarbanes-Oxley and have a lot of positions they are filling, 
their strategic plan is in the works, but it seems we are 
getting the cart ahead of the horse. Is that common in 
departments, in your opinion?
    Ms. Dalton. I think it is common and probably more so in 
departments that are undergoing change, because often, their 
skill needs are going to be different. What they had and what 
they need are going to be different. And there is going to have 
to be a transition period.
    What strategic planning does if you are doing it properly, 
you look at your means and strategies. And it forces an agency 
to focus on those resource issues and say, hey, do I have these 
things needed to accomplish organizational goals; and if not, 
what do I need to do to acquire them? What goes hand-in-hand 
with a strategic plan for an organization is also a human 
capital strategic plan to be sure that everything matches up.
    So one of the things I would be looking at in the SEC is, 
do they have a strategic plan? Do they have a human capital 
strategic plan? Have those been integrated? And because they 
are faced with challenges that need to be addressed now as 
opposed to later, they may have to develop the plans 
simultaneously. However, they need to be working in an 
integrated fashion so that there is discussion from the various 
groups and, often, overlap between the groups.
    Mr. Breul. This is an important area, a linchpin to making 
all this work. It is one we are just seeing progress on in 
significant ways right now.
    Senior executive standards for the SES have been locked in 
with this expectation now, so there is a cycle of evaluations 
that are actually starting to come through with performance 
measures and strategic plans reflected in those SES standards.
    The enactment of the Homeland Security Department and the 
flexibilities given the Defense Department and NASA are based 
on performance-based human-resource systems, and that will 
begin to make adjustments that will make pay, recognition and a 
whole bunch of factors performance-sensitive. And that 
performance will tie back to the mission goals. So we are 
beginning to see some very significant progress and activity in 
this area.
    Mr. Platts. Yes.
    Mr. DeMaio. One of the items I testified before Chairwoman 
Davis' Subcommittee on Civil Service was exactly on the need to 
codify in statute the requirement that agencies develop a 
human-capital plan. This Administration has made that an 
initiative that each agency develop a strategic human-capital 
plan, but that could go away if there is a new administration 
or the current Administration decides to take it in a different 
direction. So I think Congress could play a key role in 
codifying that as a statute.
    There are two agencies that I would point out besides NASA 
that are doing a remarkable job in developing strategic human-
capital plans, and that is the Nuclear Regulatory Commission 
and the Internal Revenue Service, which has done a lot to match 
its work force changes over a long period of time with 
recruitment, retention and reward systems. So this committee 
could look at those two as best-practice models.
    Mr. Keevey. I agree that work force planning is critical, 
performance measurements are critical and one has to press 
forward with them.
    On a day-to-day basis in running an organization in running 
a governmental entity, things, however are pretty basic. You 
have to reward the good people who are performing. You have to 
have a system that can get people into the Government and 
retain the people in the Government to give them worthwhile 
jobs, proper management, proper training, proper pay. Nothing 
has changed in the traditional way of managing a good 
organization. They are a key strategy and puts the overall 
emphasis on it.
    From my years of experience, the weakness always comes back 
to, you don't have the training for the people or a reward 
system so that the high-performers are getting the rewards and 
those people who are not performing are moved our of the 
Government and moved into other organizations perhaps to where 
their skills and talents better suit them. And that is the way 
to make the Government perform better in my judgment.
    Mr. Platts. The final question I have is on the PART 
process and as we are looking at legislation to codify that 
approach, not necessarily the PART itself but that type of 
review. Is your opinion on the role of GAO and the IG--one of 
the concerns raised--and while we acknowledge that politics is 
part of the process here--but is there a role for GAO or the IG 
community to, in essence, perform an oversight on a certain 
percentage of each PART review that is done each year to kind 
of look at what was done and the information that was gathered 
and then the conclusions that were reached and then give an 
opinion on that information? Is that redundant, or do you think 
that would be helpful for GAO or IG's?
    Ms. Dalton.
    Ms. Dalton. As you know, Mr. Chairman, we did review the 
whole PART process in 2004, the initial process. And that is a 
role that we can continue to play in looking at the overall 
process. One of the things that we looked at in our review is, 
how is GAO's work reflected in the PART assessment? And I think 
that could be a continuing role.
    Ms. McGinnis. As part of our role, we produce an incredible 
amount of work every year on a wide number of programs and 
areas and how is that being reflected in the process. I think 
that is how we can probably most efficiently use our resources.
    Mr. Platts. Thus far, in your view, how has your 
information been used in the 400 or so programs?
    Ms. Dalton. In the review of the 2004 work, we saw it was 
being reflected. In fact a GAO evaluation was considered one of 
the evaluation tools that OMB expected to be reflected in the 
PART assessments.
    Mr. Platts. Mr. Breul.
    Mr. Breul. Mr. Chairman, I come to this question having, to 
up until 2 years ago, spent the last 20 years in the Office of 
Management and Budget working on these matters. I think it 
needs to be recognized that the resource allocation process is 
inherently political. There are priorities and policies 
reflected there, and there are judgments of every kind of 
personal and political nature. Indeed, a President ought to 
have the prerogative, as the Budget and Accounting Act lays 
out, to put together the budget he or she feels is appropriate 
for the Nation and the program put forward.
    That said, the Constitution is very clear that the 
President proposes, and it is the Congress that actually 
disposes and enacts appropriations. So there is a very open and 
clear give-and-take. I don't think it would be appropriate, 
however, to get the GAO or the IGs involved in sort of the mosh 
pit of the budget process within the President's 
decisionmaking, particularly given the fact that it is all laid 
out as clearly as it is on CD-ROMs, published materials and the 
rest, with all the frameworks that have been used to evaluate 
these programs. The judgments and scores and justifications 
have made it about as transparent as it has ever been, and I 
think that is to the good. But, again, to put the GAO in the 
midst of that would be an awkward matter for both parties.
    Once the budget is out, it is fair game for the public and 
everybody to see what has been proposed and to make their own 
judgments as well.
    Mr. Platts. Mr. DeMaio.
    Mr. DeMaio. With the COPP proposal, we believe Congress 
should do a review, and we decided not to propose GAO as the 
agency to do this. GAO and IGs are inputs into the PART 
process. The evaluations that they conduct can be used. PART is 
not an evaluation. It summarizes what we do and do not know 
about a program's performance. Just like when OMB publishes its 
revenue estimates or its cost estimates, CBO peer reviews that 
and publishes sometimes a contrary revenue or cost estimate. 
Congress desperately needs the capacity to have its own shop 
that says here is what we do or do not know about the 
performance of this program, and we disagree with the 
administration or we concur.
    I would say a COPP office, something like it that could be 
overseen by this committee and the Budget Committee, and maybe 
there is a role for appropriations there, to look at what do we 
know and not know, and maybe GAO and IG reports are input that 
office looks at, amongst other peer-reviewed and other third-
party evaluations, but PART is not an evaluation in and of 
itself. PART is a framework for sorting through all of the tons 
of information, and Congress and committees want that. They are 
not at a lack for information, they are at a lack for quality 
information to drive decisions.
    Mr. Keevey. Just an observation. The budget is one thing 
and the appropriation acts are something else. The gap between 
what the President proposes based upon program analysis by OMB, 
PART analysis--not that there is not political judgment there--
then it gets into the congressional arena where we have a 
combination and more information on programs is important. So 
if you use the data, for example, that OMB has put together and 
then add the political judgment to it, I think that is where it 
comes together. I don't think you necessarily need another 
entity to critique in some detail a PART analysis or the 
analysis that comes through in the budget, but to take that 
information, weigh it, bring it together with your 
congressional oversight and come out with an appropriation act.
    I would be curious to see what the big gap is between what 
the budget is proposing and what ultimately gets factored into 
the appropriation act. There may be some gaps as you go through 
it.
    Mr. Mercer. With respect to the IGs, I don't know what 
their thinking would be today. My only clue was what their 
thinking was several years ago when I worked with a lot of them 
when I was with the Senate Governmental Affairs Committee.
    From what I recall, this is not at all the kind of thing 
that the IGs would welcome, looking at the credibility of a 
process within OMB. We had a hard time getting them interested 
in looking at management kinds of issues. They did not want to 
be seen as rendering management-related advice to the agencies. 
They basically wanted to look for problems and blow the whistle 
and yell foul. It was really pulling teeth.
    I can remember the meeting where the chairman of the 
committee at that time, Senator Glenn, got a politely hostile 
reaction from a room full of IGs when he told them he would be 
expecting them to look at the agency's management systems and 
advising them how to improve it.
    That may have changed since then, but I would think about 
the best I could comfortably ask IGs to do would be to go in 
and audit the performance information. That is a huge role for 
them. They do financial audits; but performance audits, 
verifying the actual results, outputs, activities and outcomes 
that are reported by the agencies agency-wide is a huge task. 
And if we are going to ask people to use this information, the 
reported results have to be credible, especially if you want to 
get it to managers throughout the year to actually manage for 
results. That is a huge task. Since it is internal to the 
agency, they are probably more comfortable doing something like 
that.
    Mr. Platts. So if the IG is involved, it is a straight 
objective review.
    Mr. Mercer. Right; and something internal to the agency, 
not I am going to evaluate the process at OMB and its 
credibility of the review there. I don't think that is 
something that they would welcome.
    Mr. Platts. Given that the IG budgets remain part of that 
department's or agency's decisionmaking process and they are 
not independent, that complicates their challenge.
    Mr. Metzger.
    Mr. Metzger. The IGs are, through their semiannual reports, 
are being engaged in analyzing performance aspects of their 
agencies today.
    Mr. Platts. Mr. Towns, did you have any other questions?
    Mr. Towns. I have one last question for Ms. Dalton. If GPRA 
or PART is used to grade programs without the constructive 
involvement of the Congress and other stakeholders, they might 
easily be used as a partisan tool to accomplish ideological 
objectives. Is there any way we can avoid this?
    Ms. Dalton. If strategic planning and GPRA are used 
properly, it requires the engagement of Congress and all 
stakeholders. What an agency is doing has to reflect not only 
the desires of the executive branch, but also what its 
oversight committees, its authorizing committees, want it to do 
and where those priorities should be reflected. So, yes, 
Congress has to be and should be engaged in the process to 
really reach its full potential.
    I think we have some engagement in some areas. We certainly 
have a lot of areas where we need to improve that engagement. 
One of the things that we have recommended in our report on the 
strategic plans that the agencies are developing is, as Ms. 
McGinnis also recommended, that the planning cycle be more in 
line with the Presidential term so a new strategic plan would 
be issued 12-18 months after the new President comes in.
    However, we also say that the agencies need to consult with 
the Congress at the beginning of each congressional term, 
because it is very important that congressional views be 
reflected in agency strategic planning and subsequently in 
their performance planning.
    Mr. Towns. Mr. DeMaio, do you have any comments on that.
    Mr. DeMaio. Our proposal to engage Congress through a COPP 
would allow the minority of the Senate and the House to provide 
a list of programs that they would like the COPP office to 
review. And they could also flag programs that they think OMB 
has not reviewed appropriately and ask for an independent 
evaluation.
    The other thing is to highlight what Jonathan noted, the 
PART is transparent. If you disagree with a score, you can go 
back and see it is evidenced based. If you say no, they do not 
have a good mission statement, if OMB's examiner says no, they 
do not have a good mission statement based on statute, they 
have to attach the mission statement. We encourage the public 
to review these PARTs. We have even created a Web site, 
www.transparentgovernment.org, where they can download their 
own version of the PART and look at the program of their 
choice.
    But Congress would have, as part of the COPP office, the 
ability to do this more routinely. It has capacity, and I would 
suggest that the minority in both Chambers and the majority in 
both Chambers be allowed equal representation in terms of what 
programs to evaluate.
    Mr. Towns. Thank you, and I yield back.
    Mr. Platts. Thank you, Mr. Towns.
    I thank each of you for your participation here today. You 
bring a wealth of knowledge to this issue. As we go forward the 
rest of this year and the years to come with our oversight 
responsibilities with GPRA, and if we are successful in 
enacting legislation regarding PART or a variation of that, we 
will continue to look to each of you for your expertise as to 
what we are doing right and what we are doing wrong and how we 
can continue to partner with the executive branch and the 
private sector and, in the end, have good results for all 
American taxpayers for funds they are sending this way.
    I would also like to thank the staff on both sides for the 
hearing, and especially Dan Daly, counsel. This is his last day 
officially with our subcommittee. He is moving over to Chairman 
Putnam's Technology Subcommittee, so he is not moving 
physically very far, through the wall from where our office is. 
Dan has been great for the last 15 months. As I came in as the 
new chairman, he provided great counsel to the committee, and 
to Chairman Horn prior to his retirement. We wish you well in 
your new position. Because you will not be too far, I am sure 
we will continue to pick your brain in the months to come.
    Mr. Towns. I would like to associate myself with the 
remarks made. We have enjoyed working with you, Dan, and wish 
you the best in your new assignment.
    Mr. Platts. We will hold the record open for 2 weeks for 
any additional information that you want to submit, and I once 
again thank everybody for their participation. This hearing 
stands adjourned.
    [Whereupon, at 4:15 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5196.085

[GRAPHIC] [TIFF OMITTED] T5196.086

[GRAPHIC] [TIFF OMITTED] T5196.087

[GRAPHIC] [TIFF OMITTED] T5196.088

[GRAPHIC] [TIFF OMITTED] T5196.089

                                 <all>

</pre></body></html>
